a
OicPy
'
\

FILED

1

JOSEPH L. GOLDEN, ESQ. (S-B.6^293)
LAW OFFICE OF JOSEPH L. GOLDEN
2 10100 Santa Monica Boulevard Suite 300
Los Angeles, California 90067-4107
3 Telephone: (310) 772-2260
4 I Attorney for Plaintiff BOBBY WATSON

LOS ANGELES SUPERIOR COURT

JUN 01 2006
John A. Ciarne, Executive Lmicer/Clerk
Deputy
By.

‘-Utiles

Cass assigned to
i^dge

5

tn'X

6

j

7

SUPERIOR COURT OF THE STATE OF CALIFORNIA
8

FOR THE COUNTY OF LOS ANGELES
9
10
ii
12

)
)
)
)
)

BOBBY WATSON,
Plaintiff,

13

vs.

14

Case No.

COMPLAINT:

aka IVAN RENE MOORE,)

15
ta a id T21? t 'V \/f A.RTIN J^R-AGG5 and DOES 1)
16 II jz
miTWORTH^THROUSTER,
through 25, inclusive,
17

B C 353300

1. TO SET ASIDE FRAUDULENT
TRANSFERS; AND
2. FOR DAMAGES

-)
)

Defendants.

18
19

in and each of them, plaintiff BOBBY
For his complaint against the defendants named herein,

20

21 II WATSON (“plaintiff’) alleges as follows:
I
i

22

i

23

T Q 5 O ? "
§ g sg c?

THE PARTIES.

ii

24
25

n

26

i
27

0

l

28

1.

Plaintiff is, and during all material times has been,

2.

Upon information an

:u; ’•

an indNidEiaFresiffiirg jn&os

u

Angeles County; California.

CT

dasa
s = Ss
’.1?

o

ro

g G

d belief, defendant RENE MOORE, also taosvS as

MOORE (“MOORE”), is, and during all material times was, an

r.J

-tn

individual residing in Lo^Angeles
*>■»

_

County, California.
"Printed on Recycled Paper

Upon information and belief, defendant RONALD HELLS (“HILLS ) is, and during
3.
1
2 1 all material times was, an individual residing in Los Angeles County, California.
Upon information and belief, defendant KIMBERLY BRAGG, also known as
4.
4 II KIMBERLY MARTIN BRAGG (“BRAGG”), is, and during all material times was, an individual

3

5 J| residing in Los Angeles County, California.
5.

6

Upon

information

and

belief,

defendant

VALERIE

WHITWORTH

7 II (“WHITWORTH”) is, and during all material times was, an individual residing in Los Angeles
8

County, California.
6.
Upon information and belief, defendant KEITH ROUSTER (“ROUSTER”) is, and

9
10 | during all material times was, an individual residing in Los Angeles County, California.
11

7.

Plaintiff is ignorant of the true names and capacities of the defendants sued herein as

12

Does 1-25, inclusive, and therefore sues said defendants by said fictitious names. Plaintiff will

13

amend this complaint to state said defendants' true names and capacities when the same have been

14

ascertained.

Upon information and belief, at all times mentioned herein the Doe defendants, and
8.
15
16 II each of them, were the alter egos, agents, servants, partners, successors-in-interest, and/or employees
d defendants and of one another. Said defendants aided and abetted or participated with
of the name
named defendants and with each other in the wrongful acts and course of conduct complained
18 the
are responsible for the acts,
19 of herein, or otherwise caused the damages sought herein and
20 | occurrences, and events alleged in this complaint. In doing the things herein alleged, they were

17

21

acting within the scope of their authority and with the permission and consent of the named

22

defendants and of each other, and said acts, and each of them, have been ratified and consented to

23

by each of the defendants.

24
fi
b

25

[4

26

T

4

27
28

WATSON’S STATUS AS A CREDITOR OF MOORE’S
On April 5, 2005, WATSON filed an action for breach of contract against MOORE
9.
in the above-entitled court entitled Bobby Watson v. Rene Moore, et. al,„ Case No. BC331291.
WATSON and MOORE had entered into the contract upon which that action was based in or about

/-XT' P

1 An Pcarvr*r

January 2003. Following a jury trial, judgment was entered in WATSON’s favor on or about May

1

3,2006 awarding him $383,563,47 plus recoverable costs. WATSON is the owner of that judgment,

2

which will become final as provided by law, and no part of it has been satisfied. A true and correct

3

4

copy of the judgment is attached hereto as

Exhibit 1 and is incorporated herein by this reference.

5

aanrrpB’S TNSmKR RELATIONSHIPS WITH CERTAIN OTHF.R DEFENDANTS

6

Upon informationandbelief,RENEMOOREMUSIC, INC. rRMMI”) is, and during
10.
all material times has been, a corporation organized under Nevada law that maintained and office

7
8

9

and conducted business in Los Angeles County.

information and belief, RUFFTOWN ENTERTAINMENT GROUP , INC.
11.
Upon
10
11 jj (“RUFFTOWN”) is, and during all material times has been, a corporation organized under Nevada
12

law

that maintained and office and conducted business in Los Angeles County.

Upon information and belief, MOORE owns a significant amount (if not all) of the
12.
13
14 || outstanding stock of RMMI and RUFFTOWN. Upon further information and belief, MOORE is the
15

president of RMMI and controls the business activities of RMMI an d RUFFTOWN and each of

16

them.

17

13.

Upon

information and belief, HILLS is, and during all material times has been, an

f RMMI and RUFFTOWN. Upon further information and belief, HILLS is, and during
18 employee o
19 | all material times has been, an offtcer of RMMI and RUFFTOWN. Upon further information and
belief, during the material times

21

properties and subsequently held title to them in trust for MOORE in order to and with the intent of

22

assisting MOORE in the implementation of MOORE's plan and scheme to defraud his creditors and

23

24

otherwise hinder, obstruct, delay their efforts to collect the debts he owed them:
a.

The improved real property at 6132 Wooster Avenue, Los Angeles, California

(“6132 Wooster Avenue”) in which MOORE resided between 1983 and early 2003, and from which

0
:■

and at MOORE’s behest, HILLS purchased the following real

20

25

RMMI and RUFFTOWN conducted their business activities until early 2003;

a 26
v:

1

27

The improved real property at 6150 Shenandoah Avenue, Los Angeles,
b.
California (“6150 Shenandoah”) in which MOORE currently resides and from which RMMI and

28
TirirMAfi An r?rrvc.lcrt Paocr

1

RUFFTOWN currently conduct their business activities;
c.

2
3

4

California (“1236-38 S. Redondo Boulevard”).
14.

associate of MOORE’s. Upon further information and belief, during the material times and at

6

MOORE’s behest, BRAGG has done the following in order to and with the intent of assisting

7

MOORE in the implementation of MOORE’s plan and scheme to defraud his creditors and

8

otherwise hinder, obstruct, delay their efforts to collect the debts he owed them:
a.

after the property had been sold to a third party at a foreclosure sale. Upon further information and

11

belief, MOORE asked BRAGG to do so because as alleged in greater detail below, MOORE has

12

always placed legal title to his assets in the names of others in order to hinder, obstruct and defraud

13

his creditors and thus did not have sufficient assets in his name to qualify for the needed financing.
b.

BRAGG purchased all or a portion of 1236-38 S. Redondo Boulevard from

15

HELLS in or about March 2003 in order to provide MOORE with funds he needed to cure a

16

delinquency in the mortgage on 6150 Shenandoah. Upon further information and belief, MOORE

17

had BRAGG take title to 1236-38 S. Redondo Boulevard rather than having the title placed in his

18

name in order to hinder, obstruct and defraud his creditors.
c.

19

BRAGG purchased 6150 Shenandoah from I-IELLS in or about March, 2004.

20

Upon further information and belief, MOORE had BRAGG take title to this property rather than

21

having the title placed in his name in order to hinder, obstruct and defraud his creditors.

22

15.

Upon information and belief, WHITWORTH is, and during much of the time material

23

to this action has been, MOORE’s close personal friend. WHITWORTH is an attorney and has

24

represented MOORE in various litigations, but none of the following was within the course and

R

i

BRAGG agreed to be a purchaser of 6132 Wooster in or about April 2003

10

14

/

Upon information and belief, BRAGG is a long time friend, neighbor and business

5

9

H

The improved real property at 1236-38 S. Redondo Boulevard, Los Angeles

scope of those representations. Upon further information and belief, during the material times and
26

at MOORE’s behest, WHITWORTH has done the following in order to and with the intent of

27

assisting MOORE in the implementation of his plan and scheme to defraud MOORE’s creditors and

28

otherwise hinder, obstruct, delay their efforts to collect the debts he owed them:

2

and thereafter held title to that property in trust for MOORE.
b.

3

4
5

WHITWORTH purchased all or a portion of 1236-38 S. Redondo Boulevard

a.

1

WHITWORTH purchased 6150 Shenandoah and thereafter held title to that

property in trust for MOORE.
16.

Upon information and belief, ROUSTER is, and during much of the time material to

6

this action has been, MOORE’s employee and business associate. Upon information and belief,

7

ROUSTER is the president of RUFFTOWN and a director of RMMI. Upon further information and

8

belief, ROUSTER purchased 1236-38 S. Redondo Boulevard in July 2005 and has held title to that

9

property in trust for MOORE since then. ROUSTER did so at MOORE’s behest and with the intent

10

of assisting MOORE in the implementation of his plan and scheme to defraud MOORE’s creditors

11

and otherwise hinder, obstruct, delay their efforts to collect the debts he owed them.

12
13
14
15
16
17

FIRST CAUSE OF ACTION
(Avoidance of Fraudulent Transfers of 6150 Shenandoah Avenue and Related RemediesAgainst MOORE, HILLS, BRAGG, WHITWORTH and DOES 1 -25)
17.

WATSON repeats and incorporates herein by this reference, each of the allegations

in paragraphs 1 through 16 above.
18.

The subject of this cause of action is the improved real property (a single family

18

residence) located at 6150 Shenandoah Avenue, Los Angeles, California 90056 and more fully

19

described as follows:

20

21
22
23

24

Lot 141 of Tract 24252, in the County of Los Angeles, State of California, as
per map recorded in Book 653, Pages 26 to 30, inclusive, of Maps, in the office of
the County Recorder of Los Angeles County.
Excepting therefrom, all oil, oil rights, natural gas rights, mineral rights, and
other hydrocarbon substances by whatever name known, together with appurtenant
rights thereto, without, however, any right to enter upon the surface of said land nor
any portion of the subsurface lying above a depth of 500, as excepted or reserved in
instruments of record.
Except all water, claims or rights to water, in or under said land.

0

25

/
ft
1

26
27

MOORE’s late mother, Ima Moore (“IMA”), purchased 6150 Shenandoah and thereafter held title

n

28

to the property in trust for MOORE. Upon further information and belief, IMA was living in another

19.

Upon information and belief, in or about December 1996, WHITWORTH and

1

house when she and WHITWORTH took title to 6150 Shenandoah, and continued to live in that

2

other house until her death. Upon further information and belief, IMA worked in a beauty shop at

3 I the time and WHITWORTH had acted as MOORE’s lawyer in some litigations. WHITWORTH’S
4

purchase of an interest in this property was outside the course and scope of her duties as MOORE’s

5

lawyer. Upon further information and belief, MOORE supplied the down payment and the funds

6

subsequently used to pay the mortgage. Upon further information and belief, MOORE had

7 | WHITWORTH be a co-purchaser because IMA could not qualify for the mortgage, MOORE sassets
8

all were in others’ names, and he did not want to take title in his name. Upon information and belief,

9 1 MOORE was and during all material times has been the beneficial owner of the property.
10

20.

Upon information and belief, in or about March 1999, IMA conveyed her legal

11 || interest in 6150 Shenandoah to WHITWORTH but received no consideration in exchange for it.
12

21

Upon information and belief, in or about January 2001, WHITWORTH transferred

13

her interest in 6150 Shenandoah back to IMA for $650,000, $617,500 of which was borrowed. Upon

14

further information and belief, IMA did not then have sufficient assets to purchase the property or

15

qualify for that mortgage. Upon further information and belief, MOORE supplied the down payment

16

and the funds subsequently used to make the monthly mortgage payments. Upon information and

17 || belief, MOORE remained the beneficial owner of the property despite the transfers of legal title.
18

22.

Upon information and belief, in or about July 2001, IMA purportedly executed a deed

19

transferring title to 6150 Shenandoah to HILLS. IMA received no consideration for that transfer.

20

Upon further information and belief, at the time IMA purportedly executed this deed, she also

21

executed a will which provided that upon her death, her assets were to be distributed to a trust that

22

she also purportedly created that day. Upon further information and belief, MOORE is the primary

23

beneficiary under IMA’s will and this trust. Upon information and belief, MOORE orchestrated the

24

transfer of 6150 Shenandoah from IMA to HELLS to keep the property out of IMA’s estate so that
it would be beyond the reach of his creditors upon her death. Upon further information and belief,

ft

MOORE and HILLS agreed that HILLS would hold title to this property as a means of hiding

\

27

MOORE’s assets from his creditors and at all times HILLS held title to that property in trust for

28

MOORE.

1

and belief, MOORE is the executor of her will but did not submit it for probate until April 2002.

3

Upon further information and belief, the deed transferring title to 6150 Shenandoah from IMA to

4

HILLS was recorded in the Los Angeles County Recorder’s Office in May 2002.

I

Upon information and belief, in or about March 2004, HILLS purportedly sold 6150

Shenandoah to BRAGG, who is the current owner of record. Upon further information and belief,

7

BRAGG did not then have sufficient assets to purchase the property or qualify for the mortgage and

8

loans that were placed on the property. Upon information and belief, MOORE, directly or through

9

RMMI and/or RUFFTOWN, supplied those funds. Upon further information and belief, MOORE

10

and BRAGG agreed that BRAGG would hold title to this property as a means of hiding MOORE’s

11

assets from his creditors and at all times BRAGG has held title to that property in trust for MOORE.
25.

Upon information and belief, neither HILLS nor BRAGG have lived at 6150

13

Shenandoah. Upon further information and belief, HILLS collected and received rents and other

14

consideration from the persons and entities who occupied that property while he held legal title to

15

the house, including but not limited to MOORE, RMMI and RUFFTOWN. Upon further information

16

and belief, BRAGG collected and received rents and other consideration from the persons and

17

entities who occupied that property while she has held legal title, also including but not limited to

18

MOORE, RMMI and RUFFTOWN. WATSON does not now know the amount of such rents and

19

other such consideration, but upon information and belief alleges that the total of such rents and

20

other consideration approximates the amount of his judgment.

21

ft

24.

6

12

if

Upon information and belief, IMA died in October 2001. Upon further information

2

5

ft

23.

26.

Upon information and belief and as alleged in greater detail above, MOORE

22

structured, orchestrated and directed each of the transfers of 6150 Shenandoah with the actual intent

23

to defraud his then existing and future creditors and to hinder, delay and obstruct their efforts to

24

collect the debts he owed them.

25

27.

Upon information and belief each of the parties to the transactions alleged above

26

knew that MOORE was structuring, directing and orchestrating them as he did in order to defraud

27

his then existing and future creditors and to hinder, delay and obstruct their efforts to collect the

28

debts he owed them. Said defendants had such knowledge by virtue of their personal and business

relationships with MOORE, their knowledge of the manner in which he conducted his business and

1

of RMMI and RUFFTOWN, their knowledge of and participation in the lawsuits that
the businesses
MOORE has filed and those that have been filed against him, and their agreements with MOORE

2
3

to take and hold title to the various properties in trust for him.

4

28.

5

WATSON did not discover the foregoing fraudulent conduct and fraudulent transfers

of 6150 Shenandoah before a date that is within the applicable statutes of limitations. He could not

6
7
8

have reasonably discovered that fraudulent conduct and those fraudulent transfers before then
because, among other things, he did not have any reason to investigate MOORE’s financial condition

9

and assets before the jury returned its verdict in Watson w Moore. WATSON discovered the

10

foregoing frauds and fraudulent transfers im or about March 2006 during his investigation of

11
12
13
14
15

MOORE’s financial condition in anticipation of enforcing the judgment after it was entered.
29.

Upon information and belief, the fair market value of 6150 Shenandoah exceeds the

total of the mortgage and loans secured by that property. By reason of the fraudulent conduct and
fraudulent conveyances alleged in greater detail above, BRAGG holds 6150 Shenandoah as
constructive trustee for WATSON’s benefit.
30.

17
18
19

By reason of the foregoing, WATSON is entitled to the following reliefwith respect

to 615 0 Shenandoah:
a.
an order avoiding the following transfers of that property and ordering that
title to the property be declared to be in the Estate of Ima Moore, deceased:
l.

20

21
22
23

executed by EM A in July 2001; and
ii.
The transfer from HILLS to BRAGG by way of the deed executed in
or about March, 2004.
b.

24

0

b

25

8

26

|

27

v*

28

h

The transfer from IMA to HILLS by way of the deed purportedly

an order enjoining and restraining all future transfers and encumbrances of

that property;
c.

a declaration that BRAGG holds 6150 Shenandoah in trust for WATSON and

an order compelling BRAGG to convey said property to WATSON;
d.

a judgment in WATSON’s favor in accordance with Civ. Code § 3439.08(b);

an order requiring HILLS and BRAGG, and each of them, to account to

e.

1

WATSON for the rents and other consideration they collected while they held legal title to the

2

property; and

3

f.

4

any and all other relief available to WATSON under Civ. Code § 3439, et

5

seq. and the common law.

6

WATSON is entitled to bring this cause of action and seek this relief notwithstanding
31.
the pendency of the probate proceedings in In re Ima Moore, LASC No. BP072750, and Inrelma

7
8

9
10
11
12
13
14
15

Moore' laSC No. BP07835 8 and the fact that avoidance of these transfers will result in the property
g returned to her estate because it would be futile for WATSON to make demand on MOORE
bein
to bring an action seeking such relief. Upon information and belief, MOORE is IMA’s heir and
primary beneficiary of the trust into which all of her property is to be distributed. He orchestrated
the transactions alleged above for the specific purpose of keeping that property out of the reach of
his creditors. The property will be subject to execution to enforce WATSON’s judgment once it is
returned to the estate and/or distributed to the trust. MOORE will not take any actions that make this
possible.

16
SECOND CAUSE OF ACTION
(Conspiracy to Engage in Fraudulent TransfersAgainst MOORE, HILLS, BRAGG, WHITWORTH and DOES 1-25)

17
18
19
20

21
22
23

24

32

WATSON repeats and incorporates herein by this reference, each of the allegations

in paragraphs 1 through 27 above.
Heged in greater detail above, at various times not presently known to WATSON
33.
Asa
but within the applicable statutes of limitations, MOORE, HILLS, BRAGG, WHITWORTH, and
DOES 1-25, and each of them, agreed and knowingly and willfully conspired among themselves to
hinder, delay, an

d defraud MOORE’s creditors, including WATSON, in the collection of their debts

25

0

26
27
28

against MOORE.
Pursuant to this conspiracy, WHITWORTH, HILLS and BRAGG, and each of them,
34.

agreed among themselves and with MOORE to do the following, among other things: (i) take title
to 6150 Shenandoah on behalf of MOORE and hold title to the property in trust for him during the

1

times alleged above, (ii) disguise and conceal the fact that MOORE was supplying the funds used

2

to purchase the property and pay the mortgages and other loans secured by it, (iii) comply with

3

MOORE’s instructions to transfer the property among themselves when MOORE needed that to be

4

done in order to raise money, (iv) acquire the property from IMA shortly before she passed away so

5

it would not be part of her estate because MOORE was her primary heir and beneficiary, (v) borrow

6

as much as possible against the property without a valid justification for doing so and make the

7

borrowed funds available to MOORE to use as he decided, and (vi) otherwise assist MOORE to

8

implement his plan and scheme to defraud his creditors and hinder, delay and obstruct them in the

9

collection of the debts he owed them.

10

35.

As a proximate result of the wrongful acts herein alleged, WATSON has sustained

11

damages in an amount not presently known with certainty but which exceeds the jurisdictional

12

threshold of this court. Those damages include, but are not limited to, the amount of the judgment

13

if and to the extent the conspirators have so encumbered the property that the equity is insufficient

14

to pay it and the costs and attorney’s fees incurred to enforce it. WATSON will seek leave to amend

15

this complaint to state the amount of his damages when the same are ascertained.

16

36.

Upon information and belief, MOORE, HILLS, BRAGG and WHITWORTH, and

17

each of them, engaged in the above-described wrongful conduct knowing that MOORE had

18

creditors, including WATSON at the times they did so. Said defendants knew that WATSON’s and

19

the other creditors’ claims could only be satisfied out of the properties they were transferring among

20

themselves, including but not limited to 6150 Shenandoah, because, upon information and belief,

21

they had knowledge of the manner in which MOORE has attempted to place his other assets beyond

22

the reach of his creditors. Notwithstanding this knowledge, said defendants intentionally, willfully,

23

fraudulently, and maliciously did the things herein alleged to defraud and oppress MOORE’s

24

creditors, including WATSON. Said conduct violated Calif. Penal Code §154. For the foregoing

PD 25

reasons, WATSON is entitled to an award of exemplary or punitive damages sufficient to punish

/

(S

26

1

27

0

28

said defendants, in an amount to be established at trial.

1
2
3

4
5

THIRD CAUSE OF ACTION
(Avoidance of Fraudulent Transfers of 1236-38 S. Redondo Boulevard and Related RemediesAgainst MOORE, HILLS, BRAGG, ROUSTER, WHITWORTH AND DOES 1 -25)
37.

WATSON repeats and incorporates herein by this reference, each of the allegations

in paragraphs 1 through 16 above.
38.

The subject of this cause of action is the improved real property (a duplex) located

6

at 1236-38 S. Redondo Boulevard, Los Angeles, California 90019 and more fully described as

7

follows:

8
9
10

Lot 372 of Tract No. 5069, in the City of Los Angeles, County of Los Angeles, State
of California, as per map recorded in Book 58,Page 45 of Maps, in the Office of the
County Recorder of Los Angeles County.
39.

Upon information and belief, as of May 1998, IMA held title to 1236-38 S. Redondo

11.

Boulevard in trust for MOORE. Upon further information and belief, at that time she transferred

12

50% of her interest in the property to RMMI. She did not receive any consideration for that interest.

13

Upon further information and belief, in or about January 1999, a mere seven months later, RMMI

14

transferred that interest back to IMA, for no consideration. Upon information and belief, during the

15

times she held legal title to the property, IMA did not live there and did not have the funds needed

16

to pay the mortgage. MOORE supplied those funds. Upon further information and belief, MOORE

17

and IMA agreed that IMA would hold title to this property as a means of hiding MOORE’s assets

18

from his creditors and at all times IMA held title to that property in trust for MOORE.

19

40.

Upon information and belief, in or about March 1999, WHITWORTH purchased

20

IMA’s interest in 1236-38 S. Redondo Boulevard from IMA for $322,000, $289,800 of which was

21

borrowed. Upon further information and belief, in or about September 1999, a mere five months

22

later, WHITWORTH transferred the property back to IMA but did not receive any consideration for

23

that interest. Upon information and belief, during the times WHITWORTH held legal title to the

24

property, MOORE supplied the funds used to make the mortgage payments. Upon further

25

information and belief, MOORE and WHITWORTH agreed that WHITWORTH would hold title

26

to this property as a means of hiding MOORE’s assets from his creditors and at all times

;

27

WHITWORTH held title to that property in trust for MOORE.

f;

28

;

41.

Upon information and belief, in or about February 2000, HILLS purchased IMA’s

1

interest in the property from her for $370,000, $332,000 of which was borrowed.. Upon further

2

information and belief, HILLS did not then have sufficient assets to purchase the property or qualify

3

for that mortgage. Upon further information and belief, MOORE supplied the down payment and

4

the funds used to make the mortgage payments after title to the property was transferred to HILLS.

5

Upon further information and belief, MOORE and HILLS agreed that HILLS would hold title to this

6

property as a means of hiding MOORE’s assets from his creditors and at all times HILLS held title

7

to that property in trust for MOORE.

8

42.

Upon information and belief, in or about March 2003, BRAGG purchased 1236-38

9

S. Redondo Boulevard from HILLS for $560,000, $532,000 of which was borrowed. Upon further

10

information and belief, BRAGG did not then have sufficient assets to purchase the property or

11

qualify for that mortgage. Upon further information and belief, MOORE supplied the down payment

12

and the funds used to make the mortgage payments after title to the property was transferred to

13

BRAGG. Upon further information and belief, MOORE and BRAGG agreed that BRAGG would

14

hold title to this property as a means of hiding MOORE’s assets from his creditors and at all times

15

BRAGG held title to that property in trust for MOORE.

16

43.

Upon information and belief, in or about May 2005, ROUSTER purchased 1236-38

17

S. Redondo Boulevard from BRAGG for $850,000. Upon further information and belief, loans

18

totaling approximately that amount were recorded against the property at that time. ROUSTER is

19

the current owner of record. Upon further information and belief, ROUSTER did not and does not

20

have sufficient assets to purchase the property or qualify for the loans that were put on it. Upon

21

further information and belief, MOORE supplied the down payment and the funds used to make the

22

mortgage payments after title to the property was transferred to ROUSTER. Upon further

23

information and belief, MOORE and ROUSTER agreed that ROUSTER would hold title to this

24

property as a means of hiding MOORE’s assets from his creditors and at all times ROUSTER has

it

b 25

held title to that property in trust for MOORE.
44.

Upon information and belief, HILLS, BRAGG and ROUSTER did not live at 1236-

l'
t
y

26
27

38 S. Redondo Boulevard when they held title to it. Upon further information and belief, HILLS

b

28

collected and received rents and other consideration from the persons and entities who occupied that

property while he held legal title to the house. Upon further information and belief, BRAGG

1
2
3

4
5

6

collected and received rents and other consideration from the persons and entities who occupied that
property while she has held legal title to it. Upon further information and belief, ROUSTER
collected and received rents and other consideration from the persons and entities who occupied that
property while she has held legal title to it. WATSON does not now know the amount of such rents
and other such consideration, but upon information and belief alleges that the total of such rents and

7 I other consideration approximates the amount of his judgment.
8

45.

Upon information and belief and as alleged in greater detail above, MOORE j

9 I structured, orchestrated and directed each of the transfers of 1236-38 S. Redondo Boulevard with
10

the actual intent to defraud his then existing and future creditors and to hinder, delay and obstruct

11 I their efforts to collect the debts he owed them.
46.
Upon information and belief, the fair market value of 1236-38 S. Redondo Boulevard
12
13 I exceeds the total of the mortgage and loans secured by said property. By reason of the fraudulent
14

conduct and fraudulent conveyances alleged in greater detail above, ROUSTER holds 1236-38 S.

15 | Redondo Boulevard as constructive trustee for WATSON’s benefit.
16

47.

Upon information and belief each of the parties to the transactions alleged above

that MOORE was structuring, directing and orchestrating them as he did in order to defraud
17 knew
18 1 his then existing and future creditors and to hinder, delay and obstruct their efforts to collect the
19

debts he owed them. Said defendants had such knowledge by virtue of their personal and business

20

relationships with MOORE, their knowledge of the manner in which he conducted his business and

21

the businesses of RMMI and RUEFTOWN, their knowledge of and participation in the lawsuits that

22

MOORE has filed and those that have been filed against him, and their agreements with MOORE

2 3 || to take and hold title to the various properties in trust for him.
WATSON did not discover the foregoing fraudulent conduct and fraudulent transfers
48.
24
2 5 1 of 1236-38 S. Redondo Boulevard before a date that is within the applicable statutes of limitations.

n

1

26

He could not have reasonably discovered that fraudulent conduct and those fraudulent transfers

27

before then because, among other things, he did not have any reason to investigate MOORE’s

2 8 I financial condition and assets before the jury returned its verdict in Watson v. Moore. WATSON

1

discovered the foregoing frauds and fraudulent transfers in or about March 2006 during his

2

investigation of MOORE’s financial condition in anticipation of enforcing the judgment after it was

3

entered.

4
5

49.

to 1236-38 S. Redondo Boulevard:
a.

6
7

By reason of the foregoing, WATSON is entitled to the following relief with respect

title to the property be declared to be in the Estate of Ima Moore, deceased:

8

9

l.

n.

in.

b.

an order enjoining and restraining all future transfers and encumbrances of

c.

a declaration that ROUSTER holds said real property in trust for WATSON

that property;

16
17

The transfer from BRAGG to ROUSTER byway ofthe deed executed

in or about May, 2005.

14
15

The transfer from HILLS to BRAGG by way of the deed executed in

or about March, 2003; and

12
13

The transfer from IMA to HELLS by way of the deed purportedly

executed by IMA in February 2000;

10
11

an order avoiding the following transfers of that property and ordering that

and an order compelling ROUSTER to convey said real property to WATSON;

18

d.

a judgment in WATSON’s favor in accordance with Civ. Code § 3439.08(b);

19

e.

an order requiring HILLS, BRAGG and ROUSTER, and each of them, to

20

account to WATSON for the rents and other consideration they collected while they held legal title

21

to the property; and
f.

22
23

24

any and all other relief available to WATSON under Civ. Code § 3439, et.

seq. and the common law.
50.

WATSON is entitled to bring this cause of action and seek this reliefnotwithstanding

25

the pendency of the probate proceedings in In re Ima Moore, LASC No. BP072750, and In re Ima

26

Moore. LASC No. BP078358 and the fact that avoidance of these transfers will result in the property

27

being returned to her estate because it would be futile for WATSON to make demand on MOORE

28

to bring an action seeking such relief Upon information and belief, MOORE is IMA’s heir and

#

primary beneficiary of the trust into which all of her property is to be distributed. He orchestrated

l

the transactions alleged above for the specific purpose of keeping that property out of the reach of

2

his creditors. The property will be subject to execution to enforce WATSON’s judgment once it is

3

d to the estate and/or distributed to the trust. MOORE will not take any actions that make this

4

retume

5

possible.

6
FOTIRTH CAUSE OF ACTION
(Conspiracy to Engage in Fraudulent TransfersAgainst MOORE, HILLS, BRAGG, ROUSTER and WHITWORTH)

7
8

9
51

10
11

in paragraphs 1 through 16 and 38 through 48 above.
52.

12
13
14
15
16

19
20

21
22

As alleged in greater detail above, at various times not presently known to WATSON

but within the applicable statutes

of limitations, MOORE, HILLS, BRAGG, ROUSTER

WHITWORTH, and DOES 1-25, and each of them, agreed and knowingly and willfully conspired
among themselves to hinder, delay, and defraud MOORE’s creditors, including WATSON , in the
collection of their debts against MOORE.
53.

17
18

WATSON repeats and incorporates herein by this reference, each of the allegations

each of them,

Pursuant to this conspiracy, WHITWORTH, HELLS, BRAGG and ROUSTER, and
agreed among themselves and with MOORE to do the following, among other things:

(i) take title to 1236-38 S. Redondo Boulevard on behalf of MOORE and hold title to the property
in trust for him during the times alleged above, (ii) disguise and conceal the fact that MOORE was
supplying the funds used to purchase the property and pay the mortgag es and other loans secured by
it, (iii) comply with MOORE’s instructions to transfer the property among themselves when
MOORE needed that to be done in order to raise money, (iv) borrow as much as possible against the

24

t 25
26
27
R

28

property without a valid justification for doing so and make the borrowed funds available to
MOORE to use

as he decided, and (v) otherwise assist MOORE to implement his plan and scheme

to defraud his creditors and hinder, delay and obstruct them in the collection of the debts he owed
them.
54.

As a proximate result of the wrongful acts herein alleged, WATSON has sustained

1

damages in an amount not presently known with certainty but which exceeds the jurisdictional

2

threshold of this court. Those damages include, but are not limited to, the amount of the judgment

3

if and to the extent the conspirators have so encumbered 1236-38 S. Redondo Boulevard that the

4

equity is insufficient to pay the judgment and the costs and attorney’s fees incurred to enforce it.

5

WATSON will seek leave to amend this complaint to state the amount of his damages when the

6

same are ascertained.
55.

7

Upon information and belief, MOORE, HELLS, BRAGG, ROUSTER and

8

WHITWORTH, and each of them, engaged in the above-described wrongful conduct knowing that

9

MOORE had creditors, including WATSON at the times they did so. Said defendants knew that

10

WATSON’s and the other creditors’ claims could only be satisfied out of the properties they were

11

transferring among themselves, including but not limited to 1236-38 S. Redondo Boulevard,

12

because, upon information and belief, they had knowledge of the manner in which MOORE has

13

attempted to place his other assets beyond the reach of his creditors. Notwithstanding this

14

knowledge, said defendants intentionally, willfully, fraudulently, and maliciously did the things

15

herein alleged to defraud and oppress MOORE’s creditors, including WATSON. Said conduct

16

violated Calif. Penal Code §154. For the foregoing reasons, WATSON is entitled to an award of

17

exemplary or punitive damages sufficient to punish said defendants, in an amount to be established

18

at trial.

19
20

21

On the First Cause of Action, against Moore. Hills. Bragg, Whitworth and Does 1-25, and each of

22

them, jointly and severally:

23

H
b

C

fi
1

WHEREFORE, WATSON prays for entry of judgment as follows:

1.

That the transfer of 6150 Shenandoah from IMA to HILLS in July 2001 and the

24

transfer of that property from HELLS to BRAGG in March, 2004, and each of them, be set aside,

25

annulled and declared void as to WATSON to the extent necessary to satisfy his judgment in the

26

amount of $383,563.47 plus costs and interest thereon at the rate of 10% percent per annum

27

commencing on May 3, 2006;

28

2.

That defendant KIMBERLY MARTIN-BRAGG be restrained from disposing of the

1

property;

2

3.

3

That defendant KIMBERLY MARTIN-BRAGG be declared to be holding said

property in trust for WATSON;

4

4.

That WATSON’s judgment be declared a lien on the property;

5

5.

That defendants RONALD HILLS and KIMBERLY MARTIN-BRAGG, and each

6

of them be required to account to WATSON for all rents, profits and proceeds earned from or taken

7

in exchange for said property;

8

6.

That WATSON recover ajudgmenl in accordance with Civ. Code § 3439.0805); and

9

7.

That WATSON be awarded any and all other relief available to him under Civ. Code

10

§ 3439, et. seq. and the common law.

11
12

On the Second Cause of Action against Moore. Hills. Bragg. Whitworth and Does 1-25, and each

13

of them, jointly and severally:

14

1.

For compensatory damages according to proof at trial; and

15

2.

For exemplary or punitive damages according to proof at trial;

16
17

On the Third Cause of Action, against Moore. Hills. Bragg. Whitworth. Rouster and Does 1-25, and

18

each of them, jointly and severally:

19

That the transfer of 1236-38 S. Redondo Boulevard from IMA to HILLS in or about

20

February 2000, the transfer of that property from HILLS to BRAGG in or about March 2003, and

21

the transfer of that property from BRAGG to ROUSTER in or about May 2005, and each of them,

22

be set aside, annulled and declared void as to WATSON to the extent necessary to satisfy his

23

judgment in the amount of $383,563.47 plus costs and interest thereon at the rate of 10% percent per

24

annum from May 3, 2006;

n

g 25
k 26
1

1.

27
28

2.

That defendant KEITH ROUSTER be restrained from disposing of the property;

3.

That defendant KEITH ROUSTER be declared to be holding said property in trust

for WATSON;
4.

That WATSON’s judgment be declared a lien on the property;

1

5.

That defendants RONALD HILLS, KIMBERLY MARTIN-BRAGG and KEITH

2

ROUSTER, and each of them be required to account to WATSON for all rents, profits and proceeds

3

earned from or taken in exchange for said property;

4

6.

That WATSON recover a judgment in accordance with Civ. Code § 3439.08(b); and

5

7.

That WATSON be awarded any and all other relief available to him under Civ. Code

6

§ 3439, et. seq. and the common law.

7
8

On the Fourth Cause of Action against Moore. Hills. Bragg, Whitworth, Rouster and Does 1 -25, and

9

each of them, jointly and severally:

10

1.

For compensatory damages according to proof at trial; and

11

2.

For exemplary or punitive damages according to proof at trial;

12
13

On all Causes of Action against All Defendants

14

1.

For an award of attorney’s fees and costs as authorized by contract and/or law;

15

2.

For costs of suit herein incurred; and

16

3.

For such other and further relief as the court may deem proper.

17
18

Dated: May 31,2006

JOSEPH L. GOLDEN, ESQ.
LAW OFFICE OF JOSEPH L. GOLDEN

19
20

21
22
23

24
0 25
U

/ 26
R
27
28

By:

t

4

sephJL. Golden
ttoriiey
for Plaintiff BOBBY WATSON
KJij

APPENDIX
2

!
U

4

JOSEPH L. GOLDEN, ESQ. (S3. 61293)
LAW OFFICE OF JOSEPH L. GOIJDEN
10100 Santa Monica Boulevard, Suite JUO
Los Angeles, California 90067-4107
Telephone: (310)772-2260
Telecopier: (310) 772-2299
Email: jlgoldenesq@venzon.net

5

Attorney for Plaintiff BOBBY WATSON,

1
2
3

j

J

°CT 1 2 2007

6
7

SUPERIOR COURT OF THE STATE OF CALIFORNIA

8

FOR THE COUNTY OF LOS ANGELES

9
10
11
12
13
14
15
16
17
18

) Case No. BC353300

BOBBY WATSON,

)
)
vs.
)
RENE MOORE, aka IVAN RENE MOORE, )
RONALD HILLS, KIMBERLY BRAGG, aka )
KIMBERLY MARTIN BRAGG, VALERIE ).
WHITWORTH, KEITH ROUSTER, RENE )
MOORE MUSIC, INC., a corporation,)
RUFFTOWN ENTERTAINMENT GROUP, )
INC., a corporation, HELEN DEL BOVE, )
trustee of The Apollo Trust, and DOES 1 )
)
through 25, inclusive.
Plaintiff,

19

Defendants.

20
21

And Related Cross-complaints

STIPULATION TO DISMISS ACTION WITH
PREJUDICE AND FOR COURT TO RETAIN
JURISDICTION TO ENFORCE
SETTLEMENT; ORDER THEREON

)
)

)
)
)

22

IT IS HEREBY STIPULATED by and among plaintiff BOBBY WATSON and defendants

23
24
"Z
/25
/
|>6
a

27

RENE MOORE, aka IVAN RENE MOORE, RONALD HILLS, KIMBERLY BRAGG, aka
KIMBERLY MARTIN BRAGG, VALERIE WHITWORTH, KEITH ROUSTER, RENE MOORE
MUSIC, INC., a corporation, and RUFFTOWN ENTERTAINMENT GROUP, INC., a corporation,
and each of them, and subject to the approval of the above-entitled court, as follows:

o

•i?8

•-Stipul« non

Printed on Recycled Paper

/

1.

1
2

5

is dismissed with prejudice, each of the parties to

bear their own costs of suit and attorneys ’ fees; and

3
4

This lawsuit shall be and hereby

2.

Pursuant to C.Ci>. § 664.6, the court shall retain junisdiction to enforces the terms

ent notwithstanding the dismissal of the lawsuit
of the parties’ written settlement agree®

6
7
8

written settlement agreemea

9

(2) the settlement

10

winch provide (1) that the lawsuit is to be dismissed with prtjrcta,

»C.Cr4«4.6.and(3)aep^wa

fleet of that dismissal on the court’s jurisdiction to entertain a
to avoid any uncertainly about the e
motion under§
‘ ‘5“-A®-4“'I0°4 ,1010-11.

11
12
13
14
15

fendant HELEN DEL BOVE, trustee of The Apollo Trust, is not a party to this
De
laintiffis filing a Request to Dismiss the Sixth Cause ofAction (the only canae
Stipulation because p
3.

of action in which she is named) without prejudice.

16
17

Dated: July/ff, 2007

18

By:S4

i.

■i^C>

oseph L. Golden
Atto) afejr B^bby Watson, Noriko Watson
and J^fth R/Golden

19
20
21

JOSEPH L. GOLDEN, ESQ.
LAW OFFICE OF JOSEPH L. GOODEN

Dated: July UL 2007

22

WILLIAM JOHN REA, ESQ.
CHRISTINA M. MACNEEL, ESQ.
LEWIS BRISBOIS BISGAARD & SMITH, LLP

23

By:

__istiiia MacNeil
Attorneys for Joseph L. Golden

24
■•3
/

tx

-'T
/

o
:&

25

26

Dated: July

2007
Rene Moore

27
28
2
Stipuliiion

&

Printed on Recycled Paper

1.

1
2

This lawsuit shall be and hereby is dismissed with prejudice, each of the parties to

bear their own costs of suit and attorneys fees ; and

3

2.

4
5

Pursuant to C.C.P. § 664.6, the court shall retain jurisdiction to enforces the terms

of the parties’ written settlement agreem

ent notwithstanding the dismissal of the lawsuit

6

7
::

8
9

•:

rt’s approval of this stipulation is requested because the parties have entered into a
The cou
written settlement agreement which provides (1) that the lawsuit is to be dismissed with prejudice,
t is to be enforceable pursuant to C.C.P. § 664.6, and (3) the parties wish
(2) die settlement agreemen
„ avoid any uncertainty about the effect of that dismissal on the conn’s jurisdiction to entertain a

10
motion under § 664.6. Sss, IJaggiii5a£iflecring.hicj/^jHis (2003) 115 CaLApp.4th 1 °04,101 °-U.
11
12
3.

Defendant HELEN DEL BOVE, trustee of The Apollo Trust, is not a party to this

13

Stipulation because plaintiff is filing a Request to Dismiss the Sixth Cause ofAction (the only cause
14
15

of action in which she is named) without prejudice.

16
17

Dated: July__ , 2007

JOSEPH L. GOLDEN, ESQ.
LAW OFFICE OF JOSEPH L. GOLDEN

18

By:

19

20

21

Dated: July

, 2007

Joseph L. Golden
Attorney for Bobby Watson, Noriko Watson and
Judith R. Golden

WILLIAM JOHN REA, ESQ.
LEWIS BRISBOIS BISGAARD & SMITH, LLP

22
23

By:___

24

425
i
.u

Att<

Wijliam John Rea
iey/fer Joseph L. Golden

Dated: Till, 2007

.126

'M
nn
f

Rene Moore

428

6

O,'

'Stipul^ion
V”

7

Trintcd on Recycled Paper

